No.

n-i is

SnWtfe

Supreme Court of tfje ®mteb States;

ELAINE WARD,
Petitioner,
v.
CITY OF NEW YORK, et al.,
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

Elaine Ward, Pro Se
P.O. Box 580222
Flushing, New York 11358
718-290-3763

RECEIVED
NOV 1 3 2019
supreEmeFcourtLu.sK

TWO (2) QUESTIONS PRESENTED
Petitioner filed a complaint in federal district
court against City of New York, for denying Ward, no­
tice, service of process and an opportunity to be heard
by the City’s Attorneys in addition to their use of per­
jured affirmations and no filings in the New York
County Clerk’s Office prior to the finalization of the
deprivation of Ward’s property, in state court.
The District Court, sua sponte dismissed the com­
plaint without any responsive pleadings or motions;
2nd Circuit affirmed with a summary order.
In 2nd Circuit proceedings defendants’ (again)
used perjured affirmations, commercial metering ma­
chines in lieu of U.S.P.S. and failed to follow the rules
for using summary orders as citations, and the 2nd Cir­
cuit failed to rule on Ward’s objections.
THE 1st QUESTION:
1.

Is there a violation of due process and equal pro­
tection under the 5th and 14th amendments as re­
lated to 42 U.S.C. 1983, when a municipality, fails
to comply with the appropriate local statutes, for
purposes of transparency, the public interest, and
the Constitutional rights of the individual(s) who
have a protected interest at stake in a matter, at
the time of transferring that matter from and be­
tween the trial court and the appellate court, to
the highest court of the state, which creates a right
to be heard in federal court that is independent of
the state court?

11

TWO (2) QUESTIONS PRESENTED - Continued
THE 2nd QUESTION:
2.

Is there a violation of due process and equal pro­
tection of the law under the Constitution when
a federal appellate court sets aside appellant’s
motions that object to the defendants’ attorneys’
violation of service by their use of commercial me­
tering machines in the proceedings, as a U.S. post
office substitute that prejudice appellant’s time to
answer, as well as defendants’ attorneys’ failure to
comply with the rules for citing summary orders
with respect to unrepresented litigants?

Ill

PARTIES TO THE PROCEEDINGS
Petitioner is:
ELAINE WARD
Respondents are:
CITY OF NEW YORK, Scott Stringer, New York
City Comptroller, Bill de Blasio, New York City
Mayor, Aisha Norflett, The NYC DOB Director of
Licensing Unit, Rick Chandler, The NYC Depart­
ment of Buildings Commissioner, Michael Cardozo,
Former Corporation Counsel, Robert LiMandri, For­
mer NYC DOB Commissioner, Drake Colley, NYC
Law Department Sr. Appeals Attorney, Louise Moed,
NYC Law Department of Counsel, Richard Paul
Dearing, NYC Law Department Attorney, Luiggy
Gomez, NYC Law Department Messenger, Moses
Williams, NYC Law Department Notary, Debra
Herlica, NYC Building Special Investigations Di­
rector, Patricia Pena, NYC BSIU Attorney, Zach­
ary W. Carter, Corporation Counsel, Plumbing
Foundation of the City of New York, Inc., Lawrence
Levine, Chairman of the Board of Directors, Li­
censed Master Plumber of the City of New York,
Stewart O’Brien, Executive Director of the Plumb­
ing Foundation, Stuart A. Klein, Esq., Peter E.
Sayer, Esq., The Law Offices of Stuart A. Klein,
Esq., Par Plumbing, AKA The PAR Group, LT. Ter­
rence O’Brien, Assistant Deputy Director of the
Plumbing Foundation

IV

RELATED PROCEEDINGS
•

In re Elaine D. Ward, Petitioner, against The
City of New York, New York City Department of
Buildings, New York City Office ofAdministra­
tive Trials and Hearings and Commissioner
Robert LiMandri, Respondents, No. 100341/2012,
New York Supreme Court Appellate Division,
First Department. Judgment entered Nov. 14,
2013.

•

Elaine Ward, against CITY OF NEW YORK et
al., No. 17-cv-03710, U.S. District Court for
the Southern District of New York. Judgment
entered Sept. 18, 2017. [A-10 to A-21]

•

Elaine Ward v. CITY OF NEW YORK, et al.,
No. 17-2973-cv, U.S. Court of Appeals for the
2nd Circuit. Judgment entered June 17, 2019.
[A-l to A-9]

•

Elaine Ward, Plaintiff-Appellant v. CITY OF
NEW YORK, et al., Defendants-Appellees,
No. 17-2973-cv, U.S. Court of Appeals for the
2nd Circuit. Judgment entered July 23, 2019.
[A-37 to A-38]

V

TABLE OF CONTENTS
Page
FOR APPENDIX
United States Court ofAppeals for the 2nd Circuit
Summary Order Affirming Judgment
of the September 18, 2017 Order
to Dismiss of the District Court
Entered June 17, 2019............................................. A-l
United States District Court Southern District of NY
Order of Dismissal
Entered September 18, 2017

A-10

Order to Amend
Entered June 13, 2017..........

A-22

United States Court ofAppeals for the 2nd Circuit
Denial of Petition for Re-Hearing En Banc
Entered July 23, 2019

A-37

Supreme Court State of New York
New York County Clerk Civil Index Book
Authenticated March 29, 2017.................

A-39

1
CITATIONS OF OPINIONS BELOW
•

Matter of Ward v City of New York, 2013 Slip Op
07569, Decided November 14, 2013, Appellate Di­
vision, First Department.

•

Matter of Ward v City of New York, NY Slip Op
06006 Decided August 28, 2014, No. 212 SSM 16,
State of New York Court of Appeals.

•

Ward v City ofNew York et al., I:2017cv03710; U.S.
Federal Court of the Southern District of New
York; filed May 17, 2017, decided September 18,
2017.

•

Ward v City of New York, 17-2973, U.S. Court of
Appeals for the Second Circuit; filed September
22, 2017, decided June 17, 2019; Petition for En
Banc Hearing and Rehearing filed July 1, 2019
and decided July 23, 2019.

JURISDICTION
The order to be reviewed was entered June 17,
2019; the order respecting rehearing was denied on
July 23, 2019; the statutory provision to confer juris­
diction, to review the order in question is 28 U.S.C.
1254.

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V, “No person shall be deprived
of life, liberty, or property, without due process of law”.

2

U.S. Const, amend. XIV, sec. 1: “All persons born or
naturalized in the United States and subject to the ju­
risdiction thereof, are citizens of the United States and
of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”
-♦

STATUTES
28 U.S.C. 1331; 28 U.S.C. 1343; 42 U.S.C. 1983.

STATEMENT OF THE CASE
This petition is to request review of the United
States Court of Appeals for the 2nd Circuit’s denial of
en banc review [A-37 to A-38], and affirmance, by sum­
mary order [A-l to A-9], of the sua sponte, order of dis­
missal, from the United States District Court for the
Southern District of New York. [A-10 to A-21]
The sua sponte dismissal order occurred prior to,
and without, responsive pleadings, or motions, from
any of the defendants. The order dismissed the com­
plaint as to all defendants for failure to state a claim
based on 28 U.S.C. 1915(e)(2)(B)(ii), although peti­
tioner did not apply for in forma pauperis status in the
court.

3

The basis for Federal Jurisdiction in the U.S. Dis­
trict Court for the Southern District of New York is
based on 28 U.S.C. 1331, 28 U.S.C. 1343 and Due Pro­
cess; Equal Protection violations of the 5th and 14th
amendments through 42 U.S.C. 1983 and 1985.

MATERIAL FACTS
Facts material to consideration of the questions
presented, are, on May 17,2017, Ward, a self-represented
litigant, filed a complaint in the Southern District of
New York to complain about, and seek relief from, in­
juries caused by the City of New York’s failure to file
and record in the New York County Clerk’s office [A-39
to A-40], notice, service of process, thereby denying
transparency and Ward’s right to be heard, prior to the
City finalizing deprivation of Ward’s property and its
associated entitlements.
On June 13,2017, the District Court ordered Ward
to amend her complaint by stating “it does not appear
that the defects in Plaintiff’s complaint can be cured
with an amendment. In an abundance of caution, how­
ever, the Court grants Plaintiff an opportunity to amend
her complaint.” [A-35]
Ward submitted her amended complaint on Au­
gust 11, 2017. Respondents were given an extended
deadline of October 20, 2017 to file answers.
On September 18, 2017, the District Court, on its
own motivation, issued an order of dismissal, without

4
any answers or motions to dismiss from any of the de­
fendants. The order stated: “For the reasons set forth
here and in the June 13, 2017 order, the complaint in
its entirety is dismissed as to all defendants for failure
to state a claim on which relief may be granted. 28
U.S.C. 1915(e)(2)(B)(ii).” [A-20]
On September 22, 2017, Ward filed a Notice of Ap­
peal. On June 17, 2019, the 2nd Circuit Clerk of the
Court, issued a summary order, affirming the district
court dismissal. [A-l to A-9]
On July 23, 2019, the same 2nd Circuit Clerk of
the Court signed an order denying Ward’s petition for
rehearing. [A-37 to A-38]
The 2nd Circuit orders that denied Ward’s right to
have her complaint heard, did not address any of
Ward’s allegations presented in Ward’s motions sub­
mitted during the pre-argument litigation in 2nd
Circuit in which Ward objected to the defendants’ at­
torney’s perjured affirmations of service and misuse of
their commercial metering machines.
Ward submits this petition to this Court seeking
relief in the form of, granting certiorari, to remedy the
denial of her right to be heard by both the lower federal
courts. [A-l to A-38]

WHY THIS WRIT SHOULD BE GRANTED
Ward’s petition for a writ of certiorari should be
granted in this matter, because the 2nd Circuit has

5

buried the important federal issue of due process in
Ward’s case, by not allowing Ward’s complaint against
the City of New York, to be heard.
The 2nd Circuit has strayed so far from accepted
practice of judicial procedure in their deference to The
City of New York and the private defendants’ attorneys
in this matter, that this Court’s supervisory authority
is necessary.
This Court needs to put the lower federal courts in
their place with regards to the significance of the right
to be heard that has been expressed by this Court’s
holding, nearly seventy (70) years ago, in Mullane v
Central Hanover Bank & Trust Co., 339 U.S. 306, 70
S.Ct. 652, 94 L.Ed. 865 (1950), that, ‘[t]he fundamental
requisite of due process of law is the opportunity to be
heard.’ Grannis v. Ordean, 234 U.S. 385, 34 S. Ct. 779,
58 L.Ed. 1363 (1914).
Both lower federal courts have deprived Ward of
her right to be heard.
The 2nd Circuit’s summary order, by definition, is
not a legal opinion. This summary order is not signed
by a judge. Ward’s right to be heard has been squashed
without legal grounds and without judicial authority.
[A-l to A-9]
This summary disposition regurgitated the dis­
trict court order without Ward having any opportunity
to be heard and without any discovery or responses
from defendants. [A-l to A-9] [A-10 to A-21]

6

The 2nd Circuit permitted and reinforced the
lower court’s departure from Constitutional law of the
5th and 14th amendments by denying Ward’s right to
be heard.
The 2nd Circuit, sanctioned by default, the failure
of defendants’ attorneys, to follow the local federal
rules and procedures.
The 2nd Circuit did this by setting Ward’s motions
aside, not ruling on Ward’s objections, and then, by de­
claring, on the docket only, after the affirmance of the
district court dismissal, by the “non-opinion”, that the
motions were “moot”. [A-9; see Footnote #2]
Ward was not heard on the issue of the perjured
affirmations and misuse of the City of New York’s at­
torneys’ law firm’s postage metering machine. This is
part of the practice of the City of New York’s attorneys
that Ward was complaining about in the district court.
[A-15, A-17]
Ward has been adversely prejudiced by their con­
duct and the federal courts have improperly used their
authority to sanction this conduct.
“It is procedure that spells much of the difference
between rule by law and rule by whim or caprice”, see
Joint Anti-Fascist Refugee Committee v McGrath, 341
U.S. 123, 71 S.Ct. 264, 95 L.Ed. 817, 1951 U.S. LEXIS
2349, 2389 (1951).
If this Court still holds that the right to be heard
is the fundamental requisite of due process, as it re­
lates to the Constitution of the United States; if this

7

protection of due process, exists for everyone who re­
sides in this country; these rulings violate the Consti­
tution, injure Ward’s rights and undermines public
policy.
The alleged “non-precedent” that summary orders
can squash the right to be heard, is set.
“The law must save the rights of parties, and not
leave them to the discretion of the courts as such.”
Louis & Nash. R. Co. v Stock Yards Co., 212 U.S. 132,
212 U.S. 144 (1909).
It is inherent in the public interest that Ward’s
complaint be heard because this is a democracy.

CONCLUSION
This petition for writ of certiorari should be
granted.
Respectfully submitted,
Elaine Ward
P.O. Box 580222
Flushing, New York 11358
718-290-3763

